APPENDIX
APPENDIX A
Fifth Circuit opinion.......................................................................................1a
APPENDIX B
Judgment of conviction ............................................................................... 14a
APPENDIX C
Preliminary order of forfeiture .................................................................... 21a
APPENDIX D
Order of money judgment ........................................................................... 24a
APPENDIX E
Federal Rule of Criminal Procedure 32.2 ................................................... 26a
APPENDIX F
Federal Rule of Criminal Procedure 35 ...................................................... 31a

Case: 18-50784

Document: 00515413843

Page: 1

Date Filed: 05/12/2020

IN THE UNITED STATES COURT OF APPEALS
United States Court of Appeals
FOR THE FIFTH CIRCUIT
Fifth Circuit

FILED
April 20, 2020

No. 18-50784

Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
DAVID DAVALOS, SR.,
Defendant - Appellant

Appeal from the United States District Court
for the Western District of Texas
USDC No. 2:16-CR-1115-11
Before JOLLY, GRAVES, and HIGGINSON, Circuit Judges.
PER CURIAM:*
Defendant-Appellant David Davalos, Sr. (“Mr. Davalos”) challenges
several aspects of the criminal sentence imposed on him by the district court.
Having considered his arguments, we affirm in part, vacate in part, and
remand this case for further proceedings.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Appendix A
1a

Case: 18-50784

Document: 00515413843

Page: 2

Date Filed: 05/12/2020

No. 18-50784
I. BACKGROUND
In August 2016, a federal grand jury returned a nine-count indictment
against Mr. Davalos and 25 others. Mr. Davalos was specifically named in two
counts: Count Three, which charged him with conspiring to possess with intent
to distribute five or more kilograms of cocaine in violation of 21 U.S.C. §§ 846,
841(a)(1) and (b)(1)(A); and Count Five, which alleged that he opened, used,
and maintained a premise in Crystal City, Texas, for the purpose of
distributing cocaine in violation of 21 U.S.C. § 856(a)(1) and (b).
The indictment included both (1) a notice of demand for forfeiture of real
property; and (2) a money judgment with a provision regarding substitute
assets. In January 2017, the government filed a bill of particulars stating that
it sought the criminal forfeiture of both the property named in the indictment
and additional properties described in the bill.
In March 2017, Mr. Davalos pleaded guilty to Counts Three and Five of
the indictment without a plea agreement. The government offered a factual
basis supporting the plea, which Mr. Davalos admitted with two exceptions.
Specifically, Mr. Davalos (1) objected to the drug quantity and drug proceeds
in the factual basis, and (2) notified the court that he did not agree to the
government’s forfeiture provisions. The district court approved Mr. Davalos’s
plea, but deferred matters related to the forfeiture to the sentencing hearing.
In May 2018, the government filed an advisory regarding the items of
which it intended to seek forfeiture at the upcoming sentencing hearing. The
advisory noted that, with respect to Mr. Davalos, the government planned to
seek (1) “[a] sum of money equal to the proceeds obtained by [Mr. Davalos] from
the violations he has pled guilty to”; (2) real property located at 310 West
Zapata Street in Crystal City, Texas; (3) $4,118.00 in U.S. currency; and (4) a
2004 Cadillac Escalade.
2

Appendix A
2a

Case: 18-50784

Document: 00515413843

Page: 3

Date Filed: 05/12/2020

No. 18-50784
Mr. Davalos’s sentencing hearing took place on August 29, 2018. During
the hearing, the court held a sealed bench conference to resolve issues
regarding drug quantity, role adjustments, and forfeiture. Following the bench
conference, the court determined that Mr. Davalos was subject to a guideline
sentence of 210–262 months for Count Three and 210–240 months for Count
Five. The district court found the advisory guideline sentencing ranges
“adequate” and imposed a concurrent 235-month term of imprisonment on each
count. The court also sentenced Mr. Davalos to supervised release.
The district court did not enter its written judgment until September 6,
2018. That judgment included an order of forfeiture and a forfeiture money
judgment. However, the government had not yet filed a motion for a
preliminary order of forfeiture or motion for entry of money judgment. It did
not do so until several weeks after entry of the district court’s written
judgment. The district court then entered a preliminary order of forfeiture and
an order of money judgment. Those orders were filed 83 and 97 days after Mr.
Davalos’s sentencing, respectively. Mr. Davalos filed his notice of appeal on
September 19, 2018.
On appeal, Mr. Davalos challenges (1) the district court’s entry of the
preliminary order of forfeiture and order of money judgment; and (2) his
within-guidelines sentence. He also seeks remand to conform the district
court’s oral pronouncement of sentence to its written judgment.
II. ORDER OF FORFEITURE AND MONEY JUDGMENT
Mr. Davalos advances two challenges to the forfeiture and money
judgment entered against him. We address each in turn.
A. Rule 32.2
Mr. Davalos contends that the district court exceeded its subject-matter
jurisdiction when it entered a preliminary order of forfeiture and order of
3

Appendix A
3a

Case: 18-50784

Document: 00515413843

Page: 4

Date Filed: 05/12/2020

No. 18-50784
money judgment more than fourteen days after his sentencing and the entry
of judgment. Existing caselaw dictates otherwise.
The imposition of criminal forfeiture is governed by Federal Rule of
Criminal Procedure 32.2. That rule provides that the court, when forfeiture is
contested, must conduct a hearing after it finds the defendant guilty. Fed. R.
Crim. P. 32.2(b)(1)(B). If the court “finds that property is subject to forfeiture,
it must promptly enter a preliminary order of forfeiture setting forth the
amount of any money judgment, directing the forfeiture of specific property,
and directing the forfeiture of any substitute property if the government has
met the statutory criteria.” Fed. R. Crim. P. 32.2(b)(2)(A). Unless it is
“impractical” to do so, the court “must enter the preliminary order sufficiently
in advance of sentencing to allow the parties to suggest revisions or
modifications before the order becomes final as to the defendant under Rule
32.2.(b)(4).” Fed. R. Crim. P. 32.2(b)(2)(B). Rule 32.2(b)(4) provides that the
preliminary forfeiture order becomes final either “[a]t sentencing” or “at any
time before sentencing if the defendant consents.” Fed. R. Crim. P. 32.2(b)(4).
The district court must “include the forfeiture when orally announcing the
sentence or must otherwise ensure that the defendant knows of the forfeiture
at sentencing.” Fed. R. Crim. P. 32.2(b)(4)(B). The court must also include the
forfeiture order, either directly or by reference, in the judgment. Id.
Here, while the written judgment entered by the district court included
an order of forfeiture and a forfeiture money judgment, the government did not
actually move for a preliminary order of forfeiture or for entry of money
judgment until more than a month after sentencing. The preliminary order of
forfeiture was not issued until 83 days after sentencing, and the order of money
judgment was entered 97 days after sentencing.
Mr. Davalos therefore argues that the district court lacked subject
matter jurisdiction to enter either the preliminary order of forfeiture or the
4

Appendix A
4a

Case: 18-50784

Document: 00515413843

Page: 5

Date Filed: 05/12/2020

No. 18-50784
order of money judgment. While subject matter jurisdiction is reviewed de novo
as a question of law, Gandy Nursery, Inc. v. United States, 318 F.3d 631, 636
(5th Cir. 2003), this court’s precedent makes clear that Mr. Davalos’s argument
is incorrect. The issue presented here is not jurisdictional, and plain error
review applies.
In United States v. Marquez, a $2 million money judgment was entered
against the defendant. 685 F.3d 501, 509 (5th Cir. 2012). Although the district
court included the money judgment in the defendant’s criminal judgment, it
failed to enter a preliminary order of forfeiture. See id. at 507, 510. On appeal,
the defendant argued that the money judgment was improperly issued because
the district court failed to comply with Rule 32.2’s requirements. Id. at 509.
The panel applied plain error review to the forfeiture issue because the
defendant did not object to the district court’s failure to enter the preliminary
order of forfeiture. See id. at 510. Applying plain error review, the panel
affirmed the district court because the defendant could not show that his
substantial rights were affected by the district court’s errors. Id. Although no
preliminary order was entered, this court allowed the money judgment to
stand.
The Marquez panel deemed the rules set forth in Rule 32.2 “procedural
requirements.” Id. at 509; see also id. at 510 (“Marquez has the burden of
showing that these procedural defects affected his substantial rights.”). And
“three-judge panels . . . abide by a prior Fifth Circuit decision until the decision
is overruled, expressly or implicitly, by either the United States Supreme
Court or by the Fifth Circuit sitting en banc.” Cent. Pines Land Co. v. United
States, 274 F.3d 881, 893 (5th Cir. 2001) (quoting United States v. Kirk, 528
F.2d 1057 (5th Cir.1976)). We therefore apply plain error review to the issue
at hand.
5

Appendix A
5a

Case: 18-50784

Document: 00515413843

Page: 6

Date Filed: 05/12/2020

No. 18-50784
On plain error review, this court may not correct an error in the district
court unless (1) there is error; (2) the error is plain; and (3) the error affects
substantial rights. United States v. Gomez, 905 F.3d 347, 353 (5th Cir. 2018).
Even when all three of those conditions are met, this court may only exercise
its discretion to notice a forfeited error if the error “seriously affects the
fairness, integrity, or public reputation of judicial proceedings.” Id.
With respect to the first two prongs of the plain error analysis, Mr.
Davalos has satisfied his burden. Rule 32.2’s mandates are clear, and the
district court’s deviation from those mandates is plainly erroneous. But Mr.
Davalos has not demonstrated that the district court’s failure to follow Rule
32.2 affected his substantial rights.
“As a general rule, an error affects a defendant’s substantial rights only
if the error was prejudicial.” United States v. Gonzalez-Rodriguez, 621 F.3d
354, 364 (5th Cir. 2010) (citing United States v. Olano, 507 U.S. 725, 734
(1993)). “Error is prejudicial if there is a reasonable probability that the result
of the proceedings would have been different but for the error.” Id. (citation
omitted). “The probability of a different result must be sufficient to undermine
confidence in the outcome of the proceedings.” Id. (citation omitted).
Mr. Davalos has not shown that there is a reasonable probability that
the result of his proceedings would have been any different had the district
court followed the appropriate procedures. See, e.g., Marquez, 685 F.3d at 510.
As such, he is not entitled to relief on this ground.
B. Honeycutt and 21 U.S.C. § 853
In addition to his argument regarding Rule 32.2, Mr. Davalos asserts
that the money judgment entered against him should be vacated in light of
Honeycutt, a recent Supreme Court decision addressing forfeiture from an
individual drug conspiracy defendant relating to the proceeds of a criminal
6

Appendix A
6a

Case: 18-50784

Document: 00515413843

Page: 7

Date Filed: 05/12/2020

No. 18-50784
conspiracy. See Honeycutt v. United States, 137 S. Ct. 1626, 1630 (2017). We
agree.
21 U.S.C. § 853 governs forfeiture of property constituting or derived
from proceeds a defendant obtained as the result of certain drug crimes. Id.
Honeycutt concerned how Section 853 operates when two or more defendants
act as part of a conspiracy, id., as is the case here. The case established that,
under Section 853, a defendant may not be held jointly and severally liable for
property that his co-conspirator derived from the crime but that the defendant
himself did not acquire. Id. at 1635.
In this case, the government’s multi-party indictment was issued before
publication of Honeycutt. It sought a money judgment of $5,980,000.00 against
all defendants, for which they would be jointly and severally liable. At the
sentencing hearing, the district court initially found “that there is a money
judgment in the case of the amount alleged of [$]5,980,000, but that is joint
and several liability.” The government then alerted the district court to
Honeycutt, which was decided in the period between filing of the indictment
and the sentencing hearing. After the government indicated that it was only
seeking $1,794,000.00 because of Honeycutt, the following exchange occurred:
THE COURT: The total amount of the money judgment is
5,980,000, but that is everybody combined. Not just you alone. And
you said it was one what?
AUSA: 1.794 million.
THE COURT: Okay. Once – I don’t really know how to say this
now because the case law has gotten really strange about joint and
several liability.
AUSA: And he would just be liable, not jointly and severally, just
for him, for the 1.794.
THE COURT: Okay, you’re not – this is not joint and several
liability?
AUSA: No, Your Honor.
7

Appendix A
7a

Case: 18-50784

Document: 00515413843

Page: 8

Date Filed: 05/12/2020

No. 18-50784
THE COURT: All right. So your amount only, alone, would be
1.794 million, not the 5.98. Okay? Everybody else will be
responsible for the rest of it. Okay?
There was no more discussion regarding the money judgment.
Mr. Davalos argues that the district court erred by entering a money
judgment against him for $1.794 million without making any factual findings
about whether he actually acquired that amount or other substitute property
as a result of the crime. We review de novo. See United States v. Rasco, 123
F.3d 222, 226 (5th Cir. 1997).
The government contends only that the district court “did hold a lengthy
hearing where it was determined that the conspiracy was responsible for
proceeds in the amount of $5,980,000” and that its imposition of the $1,794,000
money judgment against Mr. Davalos was “procedurally and substantively
reasonable and should be affirmed.” It cites no law in support of that argument.
And the Supreme Court made clear in Honeycutt that the provisions of Section
853(a) “are in accord with the limitation of forfeiture to property the defendant
himself obtained.” Honeycutt, 137 S.Ct. at 1633.
Because the money judgment entered against Mr. Davalos is without
sufficient factual support, it should be vacated and this case remanded for the
purpose of making factual findings regarding the appropriate money
judgment.1

Given this finding, we do not address the parties’ dispute regarding whether the
district court should have required the government to make a showing under Section 853(p)
prior to entering the money judgment. We note, however, that even Section 853(p)—“the sole
provision of § 853 that permits the [g]overnment to confiscate property untainted by the
crime”—is limited to property “up to the value of the tainted property.” Honeycutt, 137 S.Ct.
at 1633–34 (internal quotation marks and citation omitted). As explained above, the district
court here made no factfinding regarding that value.
1

8

Appendix A
8a

Case: 18-50784

Document: 00515413843

Page: 9

Date Filed: 05/12/2020

No. 18-50784
III. OTHER PROVISIONS OF SENTENCE
Mr. Davalos raises two additional challenges to his sentence, arguing
that (1) the district court committed reversible plain error because it misstated
the applicable standard in its Statement of Reasons; and (2) the case should be
remanded because the district court’s oral pronouncement of sentence conflicts
with its written judgment. While we find Mr. Davalos’s first argument
unpersuasive, we agree that this case should be remanded so that the district
court can amend the written judgment.
A. Statement of Reasons
When the spread of an applicable guideline sentencing range exceeds 24
months, federal law requires the district court to state—in open court and at
the time of sentencing—its “reason for imposing a sentence at a particular
point within the range.” 18 U.S.C. § 3553(c)(1). Here, the spreads of the
applicable guideline sentencing ranges were 52 months for Count Three and
30 months for Count Five.2 However, the district judge filed a Statement of
Reasons incorrectly stating that Mr. Davalos’s sentence was within an
advisory guideline range that “does not exceed 24 months.” Mr. Davalos
therefore argues that this court should vacate his sentence and remand for
resentencing.
Because Mr. Davalos did not raise an objection regarding this issue
below, this court’s review is for plain error. We therefore consider whether the
district court committed plain error that affected Mr. Davalos’s substantial
rights. See Gomez, 905 F.3d at 353. We conclude that it did not.
“While the sentencing court is required to state ‘the reasons for its
imposition of the particular sentence,’ a full explanation of the sentencing

The district court determined that Mr. Davalos was subject to a guideline sentence
of 210–262 months for Count Three and 210–240 months for Count Five.
2

9

Appendix A
9a

Case: 18-50784

Document: 00515413843

Page: 10

Date Filed: 05/12/2020

No. 18-50784
factors is not required in every case.” United States v. Duke, 788 F.3d 392, 396
(5th Cir. 2015) (citing Rita v. United States, 551 U.S. 338, 356 (2007)). Indeed,
when the district court imposes a within-guidelines sentence, “‘little
explanation’ is required” to satisfy 18 U.S.C. § 3553(c). Id. (citing United States
v. Mares, 402 F.3d 511, 519 (5th Cir. 2005)). Rather, “[t]he sentencing judge
should set forth enough to satisfy the appellate court that [s]he has considered
the parties’ arguments and has a reasoned basis for exercising h[er] own legal
decisionmaking authority.” Id. (cleaned up).
Here, the district court’s oral statement of reasons for the imposition of
Mr. Davalos’s particular sentence was sufficient to meet the mandate of 18
U.S.C. § 3553(c). See, e.g., Rita, 551 U.S. at 359 (“Where a matter is as
conceptually simple as in the case at hand and the record makes clear that the
sentencing judge considered the evidence and arguments, we do not believe the
law requires the judge to write more extensively.”); Mares, 402 F.3d at 519
(“When the judge exercises her discretion to impose a sentence within the
Guideline range and states for the record that she is doing so, little explanation
is required.”). The district court made a statement immediately before
announcing Mr. Davalos’s particular sentence, noting that it was taking into
account “the advisory guidelines, as well as the policy statements of those
guidelines, together with other sentencing factors such as the nature and
circumstances of the offense, the seriousness of the offense, the history and
characteristics of the defendant, the need to promote respect for the law and to
provide just punishment for the offense, [and] the need to deter future criminal
conduct and to protect the public.” The court also advised that it was taking
into account “the allocution of the parties, as well as the factual information
contained within the presentence report.”
This court’s opinion in Ramos is a useful analogue. There, the district
court orally imposed a 144-month term of imprisonment and the written
10

Appendix A
10a

Case: 18-50784

Document: 00515413843

Page: 11

Date Filed: 05/12/2020

No. 18-50784
judgment reflected the same 144-month term, but the Statement of Reasons
stated that the term of imprisonment was 135 months. United States v. Ramos,
33 F. App’x 704, *2 (5th Cir. 2002) (per curiam) (unpublished). A panel of this
court noted that the district court “stated orally the reasons for imposing the
particular sentence,” concluding that “[t]he only logical conclusion for the
discrepancy . . . is that the numeral ‘135’ in the ‘Statement of Reasons’ section
of the written judgment is merely a clerical error.” Id. The panel found that
“such a clerical error does not create doubts as to the period of incarceration
the district court intended to impose” and “did not affect [the defendant’s]
substantial rights.” Id.
Here, we conclude the same. Because the district court orally stated its
reasons for imposing the particular sentence it did, the dictates of 18 U.S.C.
§ 3553(c) were satisfied. The clerical error in the subsequent Statement of
Reasons did not affect Mr. Davalos’s substantive rights.
B. Written Judgment
Both parties acknowledge that, with respect to several special conditions
associated with Mr. Davalos’s term of supervised release, there is conflict
between the district court’s written judgment and oral pronouncement.
During the district court’s oral pronouncement of sentence, it said to Mr.
Davalos: “one of your standard conditions is that you’re not supposed to
associate with known felons.” But the district court went on to state that Mr.
Davalos had “the Court’s permission to associate with” his son, brothers, and
nephew, listing six individuals who were specifically exempted from the
condition. That amendment to the standard condition does not appear in the
written judgment.
There is additional conflict between the oral pronouncement and the
written judgment regarding where Mr. Davalos may live after his release from
prison. During sentencing, the district court said:
11

Appendix A
11a

Case: 18-50784

Document: 00515413843

Page: 12

Date Filed: 05/12/2020

No. 18-50784
Now, this next condition, I’m – I’m imposing it right now in case
something goes haywire in terms of the – the valid place for Mr.
Davalos to live.
Mr. Davalos, I don’t know yet what’s going to happen with the
forfeiture on your house, so I’m imposing this out of an abundance
of caution. If, when you get out, you’ve got a place to live, probation
will file a motion with me, [and] I’ll remit this next condition.
Okay?
That the first six months of your term of supervised release or your
terms of supervised release, you shall reside at a residential
reentry center for a term of six months, and you shall follow the
rules and regulations of the center; that once employed, you shall
pay 25 percent of your weekly gross income, so long as that amount
does not exceed the daily contract rate.
While the written judgment reflects the imposition of a condition requiring Mr.
Davalos to reside in a residential reentry center for a term of six months, it
does not provide that this condition will be “remitted” if Mr. Davalos “has a
valid residence to go to” when he is released from prison.
If a written judgement “broadens the restrictions of requirements of
supervised release from an oral pronouncement,” the “appropriate remedy is
remand to the district court to amend the written judgment to conform to the
oral sentence.” United States v. Mireles, 471 F.3d 551, 558 (5th Cir. 2006). We
therefore conclude that this case should be remanded to the district court so
that, with respect to the two issues discussed in this section, it may conform
the written judgment to its oral pronouncement.
IV. CONCLUSION
For the reasons stated above, we VACATE the forfeiture money
judgment provision of Mr. Davalos’s sentence. We REMAND this case to the
district court so that it may (1) conduct factfinding regarding the appropriate
value of the money judgment in accordance with Honeycutt; and (2) conform

12

Appendix A
12a

Case: 18-50784

Document: 00515413843

Page: 13

Date Filed: 05/12/2020

No. 18-50784
the written judgment to its oral pronouncement of sentence. In all other
respects, we AFFIRM.

13

Appendix A
13a

Case 2:16-cr-01115-AM Document 1146 Filed 09/06/18 Page 1 of 7
L'tJ 0

UOIUJVV.L?.

I

/,I

-

JUUUIIIIIt

III

d

rILED

L.I Illillidi

UNITED STATES DISTRICT COURT
Western District of Texas

SEP

.6 2018

CLERK u

DEL RIO DIVISION

UNITED STATES OF AMERICA

EPtjry CLj
Case Number:
USM Number:

DR:16-CR-01115-AM(11)
77513-380

DAVID DAVALOS, SR.
Defendant

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1, 1987)
The defendant, DAVID DAVALOS, SR., was represented by Michael W. McCrum.

The defendant pled guilty to Count(s) Three and Five of the Indictment on March 30, 2017. Accordingly, the
defendant is adjudged guilty of such Count(s), involving the following offense(s)
Title and Section
21 U.S.C. § 846

Nature of Offense
Conspiracy to Possess with Intent to Distribute
More Than 5 Kilogrmas of Cocaine

Offense Ended
From on or about October 1,
2012 until on or about the date of
this Indictment

Count(s)
Three

21 U.S.C. § 856

Maintaining Drug Involved Premises

From on or about October 1,
2012 until on or about the date of

Five

this Indictment

As pronounced on August 29, 2018, the defendant is sentenced as provided in pages 2 through
judgment. The sentence is imposed pursuant to the Sentencing Reform Act of 1984.

7

of the

It is further ordered that the defendant shall notify the United States Attorney for the district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by the
Judgment are fully paid. If ordered to pay restitution, the defendant shall notify the Court and United States Attorney of
any material change in the defendant's economic circumstances.

Signed this the 6th day of September, 2018

ALIA MOSES
United States District Judge

Arresting Agency: DEA

Appendix B
14a

18-50784.198

Case 2:16-cr-01115-AM Document 1146 Filed 09/06/18 Page 2 of 7

Judgment

Page 2

Defendant:
DAVID DAVALOS, SR.
Case Number: DR:16-CR-01115-AM(11)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
term of 235 months as to count 3; 235 months as to count 5. Terms to run concurrent with credit for time served from
August 17, 2016 through September 1,2016, pursuant to 18 U.S.C. § 3584(a).
The Court makes the following recommendation to the Bureau of Prisons:

That the defendant serve this sentence at F. C.

I.

Bastrop, if possible.

The defendant shall surrender for service of sentence at the institution designed by the Bureau of Prisons at or
before 2:00 PM when notified to report by the United States Marshal, but no earlier than November 30, 2018.

RETURN
I

have executed this judgment as follows:

Defendant delivered on

to

At

with a certified copy of the Judgment.

United States Marshal

Deputy Marshal

Appendix B
15a

18-50784.199

Case 2:16-cr-01115-AM Document 1146 Filed 09/06/18 Page 3 of 7

Judgment

Defendant:
DAVID DAVALOS, SR.
Case Number: DR:16-CR-01 11 5-AM(1 1)

- Page 3

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of five (5) years on
Count 3 and (3) years on Count 5, terms to run concurrent.

While on supervised release, the defendant shall comply with the mandatory, standard, and if applicable, the
special conditions that have been adopted by the court, and shall comply with the following additional condition(s):
X

The defendant shall reside in a residential reentry center for a term of Six (6) months. The defendant shall follow
the rules and regulations of the center. Further, once employed the defendant shall pay 25% of his/her weekly
gross as long as it does not exceed the contract rate.

X

The defendant shall abstain from the use of alcohol and any and all intoxicants.

X

The defendant shall participate in a substance abuse treatment program and follow the rules and regulations of
that program. The program shall include testing and examination to determine if the defendant has reverted to the
use of drugs. The probation officer shall supervise the participation in the program (provider, location, modality,
duration, intensity, etc.). The defendant shall pay the costs of such treatment if financially able.

X

The defendant shall not use or possess any controlled substances without a valid prescription. If a valid
prescription exists, the defendant must disclose the prescription information to the probation officer and follow the
instructions on the prescription.

X

The defendant shall submit to substance abuse testing to determine if the defendant has used a prohibited
substance. The defendant shall not attempt to obstruct or tamper with the testing methods. The defendant shall
pay the costs of testing if financially able.

X

The defendant shall not knowingly purchase, possess, distribute, administer, or otherwise use any psychoactive
substances (e.g., synthetic marijuana, bath salts, etc.) that impair a person's physical or mental functioning,
whether or not intended for human consumption.

X

The defendant shall provide the probation officer with access to any requested financial information and authorize
the release of any financial information. The probation office may share financial information with the U.S.
Attorney's Office.

Appendix B
16a

18-50784.200

Case 2:16-cr-01115-AM Document 1146 Filed 09/06/18 Page 4 of 7

Judgment

- Page 4

Defendant:
DAVID DAVALOS, SR.
Case Number: DR:16-CR01115-AM(11)

CONDITIONS OF SUPERVISION

Mandatory Conditions
1)

The defendant shall not commit another federal, state, or local crime during the term of supervision.

2)

The defendant shall not unlawfully possess a controlled substance.

3)

The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall submit to one drug test within
15 days of release on probation or supervised release and at least two periodic drug test thereafter (as determined by the
court) but the condition stated in this paragraph may be ameliorated or suspended by the court if the defendant's presentence
report or other reliable sentencing information indicates low risk of future substance abuse by the defendant.

4)

The defendant shall cooperate in the collection of DNA as instructed by the probation officer, if the collection of such a sample
is authorized pursuant to section 3 of the DNA Analysis Backlog Elimination Act of 2000 (42 U.S.C.
§ 141 35a).

5)

If applicable, the defendant shall comply with the requirements of the Sex Offender Registration and Notification Act (34
U.S.C. § 20901, et seq) as instructed by the probation officer, the Bureau of Prisons, or any state sex offender registration in
which the defendant resides, works, is a student, or was convicted of a qualifying offense.

6)

If convicted of a domestic violence crime as defined in 18 U.S.C. §3561(b), the defendant shall participate in an approved
program for domestic violence.

7)

If the judgment imposes a fine or restitution, it is a condition of supervision that defendant pay in accordance with the Schedule

of Payments sheet of the judgment.
8)

The defendant shall pay the assessment imposed in accordance with 18 U.S.C. § 3013.

9)

The defendant shall notify the court of any marital change in the defendant's economic circumstances that might affect the
defendant's ability to pay restitution, fines or special assessments.

Standard Conditions
1)

The defendant shall report to the probation office in the federal judicial district where he or she is authorized to reside within 72
hours of release from imprisonment, unless the Court or probation officer instructs the defendant to report to a different
probation office or within a different timeframe. The defendant shall not leave the judicial district without permission of the court
or probation officer.

2)

After initially reporting to the probation office, the defendant will receive instructions from the court or the probation officer
about how and when to report to the probation officer, and the defendant shall report to the probation officer as instructed. The
defendant shall report to the probation officer in a manner and frequency directed by the court or probation officer.

3)

The defendant shall not knowingly leave the federal judicial district where he or she is authorized to reside without first getting
permission from the court.

4)

The defendant shall answer truthfully the questions asked by the probation officer.

5)

The defendant shall live at a place approved by the probation officer. If the defendant plans to change where he or she lives or
anything about his or hei- living arraignments (such as the people the defendant lives with), the defendant shall notify the
probation officer at least 10 days before the change. If notifying the probation officer in advance is not possible due to
unanticipated circumstances, the defendant shall notify the probation officer within 72 hours of becoming aware of a change or
expected change.

6)

The defendant shall allow the probation officer to visit the defendant at any time at his or her home or elsewhere, and the
defendant shall permit the probation officer to take any items prohibited by the conditions of the defendant's supervision that
are observed in plain view.

Appendix B
17a

18-50784.201

Case 2:16-cr-01115-AM Document 1146 Filed 09/06/18 Page 5 of 7

Judgment

Defendant:
DAVID DAVALOS, SR.
Case Number: DR:16-CR-01115-AM(11)

- Page 5

7)

The defendant shall work full time (at least 30 hours per week) at a lawful type of employment, unless excused from doing so.
If the defendant does not have full time employment, he or she shall try to find full-time employment, unless excused from
doing so. If the defendant plans to change where the defendant works or anything about his or her work (such as the position
of job responsibilities), the defendant shall notify the probation officer at least 10 days before the change. If notifying the
probation officer at least 10 day in advance is not possible due to unanticipated circumstances, the defendant shall notify the
probation officer within 72 hours of becoming aware of a change or expected change.

8)

The defendant shall not communicate or interact with someone the defendant knows is engaged in criminal activity. If the
defendant knows someone has been convicted of a felony, the defendant shall not knowingly communicate or interact with
that person without first getting the permission of the Court.

9)

If the defendant is arrested or questioned by a law enforcement officer, the defendant shall notify the probation officer within
72 hours.

10)

The defendant shall not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon
(i.e., anything that was designed, or was modified, for the specific purpose of causing bodily injury or death to another person
such as nunchakus or tasers).

11)

The defendant shall not act or make any agreement with a law enforcement agency to act as a confidential human source or
informant without first getting the permission of the court.

12)

If the probation officer determines that the defendant poses a risk to another person (including an organization), the court may
require the defendant to notify the person about the risk and the defendant shall comply with that instruction. The probation
officer may contact the person and confirm that the defendant has notified the person about the risk.

13)

The defendant shall follow the instructions of the probation officer related to the conditions of supervision.

14)

If the judgment imposes other criminal monetary penalties, it is a condition of supervision that the defendant pay such
penalties in accordance with the Schedule of Payments sheet of the judgment.

15)

If the judgment imposes a fine, special assessment, restitution, or other criminal monetary penalties, it is a condition of
supervision that the defendant shall provide the probation officer access to any requested financial information.

16)

If the judgment imposes a fine, special assessment, restitution, or other criminal monetary penalties, it is a condition of
supervision that the defendant shall not incur any new credit charges or open additional lines of credit without the approval of
the court, unless the defendant is in compliance with the payment schedule.

17)

If the defendant is excluded, deported, or removed upon release on probation or supervised release, the term of supervision
shall be a non-reporting term of probation or supervised release. The defendant shall not illegally re-enter the United States. If
the defendant is released from confinement or not deported, or lawfully re-enters the United States during the term of
probation or supervised release, the defendant shall immediately report in person to the nearest U.S. Probation Office, or as
ordered by the Court.

Appendix B
18a

18-50784.202

Case 2:16-cr-01115-AM Document 1146 Filed 09/06/18 Page 6 of 7

Judgment

- Page 6

Defendant:
DAVID DAVALOS, SR.
Case Number: DR:16-CR-01115-AM(11)

CRIMINAL MONETARY PENALTIES/SCHEDULE
The defendant shall pay the following total criminal monetary penalties in accordance with the schedule of payments set forth,
Unless the Court has expressly order otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during imprisonment. Criminal Monetary Penalties, except those payments made through Federal Bureau of Prisons' inmate Financial
Responsibility Program shall be paid through the Clerk, United States District Court, 111 E. Broadway, Suite 100 Del Rio, Texas 78840.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

Assessment
$200.00

TOTAL

Fine

Restitution

$00

$00

Special Assessment
It is ordered that the

defendant shall pay to the United States a special assessment of $200. The debt is incurred immediately.
Fine

The fine is waived because of the defendant's inability to pay.

lithe defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in the priority order or percentage
payment column above. However, pursuant to 18 U.S.C. § 3664(i), all non-federal victims must be paid before the United States is paid.

lithe fine is not paid, the court may sentence the defendant to

any sentence which might have been originally imposed. See 18 U.S.C. §3614.

The defendant shall pay interest o,i any fine or restitution of more than $2,500.00, unless the fine or restitution is paid in full before the fifteenth day after the date of the
judgment, pursuant to 18 U.S.C. §3612(f). All payment options may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. §3612(g).

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) community restitution, (6) fine interest,
(7) penaltiea, and (8) costs, including cost of prosecution and court costs.
Findings

for the total amount of losses are required under chapters 109A, 110,

Appendix
B
of Title 18 for offenses committed on or after September 13, 1994, but before April 23, 1996.
18-50784.203
19a

11OA, and 113A

Case 2:16-cr-01115-AM Document 1146 Filed 09/06/18 Page 7 of 7

Judgment

Page 7

FORFEITURE
The defendant is ordered to forfeit the following money judgment to the United States:
A sum of money equal to One Million Seven Hundred Ninety-Four Thousand Dollars ($1,794,000.00), which
represents the proceeds from and the value of the property involved in the violations charged in the indictment for which
the defendants assessed a money judgment solely liable.

FORFEITURE
The defendant is ordered to forfeit the following property to the United States:
Real Property located and situated at 310 West Zapata Street, Crystal City, Zavala County, Texas, with all
buildings, appurtenances, and improvements thereon and any and all surface and sub-surface rights, title, and interests, if
any, and being more fully described as follows:

THE SURFACE ONLY IN AND TO LOT THREE (3) IN BLOCK ONE HUNDRED FIFTY (150) IN THE CITY OF
CRYSTAL CITY, ZAVALA COUNTY, TEXAS, ACCORDING TO THE OFFICICAL MAP AND PLAT OF SAID CITY
RECORDED IN VOLUME I, PAGE 640 OF THE DEED RECORDS OF SAID COUNTY.

The Clerk is responsible for sending a copy of this page and the first page of this judgment to: U.S. Department of Justice,
Appendix B
Office of Justice Programs, Washington, DC 20531

20a

18-50784.204

Case 2:16-cr-01115-AM Document 1167 Filed 11/20/18 Page 1 of 4

FILED
UNiTED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
DEL RIO DIVISION

NOV 2 0

2018

CLERK
4tT OF TEXAS

WESTEF
BY

UNITED STATES OF AMERICA,

DEPUTY

)
)

Plaintiff,

)

V.

DAVID DAVALOS, SR.

CRIMINAL NO. i)R-I 6-CR-li 15-AM

)

(ii),

)
)

Defendant.

)

PRELIMINARY ORDER OF FORFEITURE
Came on to be considered the United States of America's Motion for Preliminary Order of

Forfeiture (ECF No,

pursuant to Title 21 U.S.C.

§

853(n)(1)-(7), and Fed. R. Crim. 1.

32.2(b)(2), 32.2(b)(2)t]3), and 32.2(c)(l), and this Court being fully and wholly apprtsed in all its

premises, finds that the United States has established by a preponderance of the evidence a nexus
between the property described below, and the violations of Title 21 U.S.C.

841(a)(i) &

§

(b)(l)(A), 846, and 856(a)(l) & (b), by virtue ofDetiendant DAVID DAVALOS, SR.'s Guilty Plea
(FCF No. 742), the Court's order at sentencing, and the Judgment in a Criminal Case (ECF No.
1146, page 7), and that the Defendant has an interest in said properly.

As such, said Notion is

meritorious, and hereby is in all things GRANTED.
IT IS THEREFORE ORDERED that all right, title, and interest of Defendant DAVID

DAVALOS, SR. in certain property, namely:

Real Properly located and situated at 310 West Zapata Street, Crystal City,
Zavala Cot nty, Tcas, with all buildings, appurtena.nee, and improvements
thereon and any and all surface and sub-surface rights, title, and interests, if any,
and being more fully described as follows:
THE SURFACE ONLY IN AND TO LOT THREE (3) IN BLOCK ONE
HUNDRED FIFTY (150) iN THE CITY OF CRYSTAL CITY, ZAVALA
COUNTY ii NAS A( CORDiNG 0 HE 011 TCIA[
P \N[) PT A 01
SAID CIT' Rr( ORD1D1N VOlUME 1,PAGF 64001 [HF D 1 DRFCOLDS
OF SAID COUNTY,
I

1

Appendix C
21a

1

1

18-50784.233

1

--#

Case 2:16-cr-01115-AM Document 1167 Filed 11/20/18 Page 2 of 4

hereinafter referred to as the Subject Real Property, be, and hereby is, FORFEITED to the United
States of America.
IT IS FURTHER ORDERED that upon entry of the Preliminary Order of Forfeiture, the
United States of America, through its lawfully designated agents and agencies, including the

United States Marshals Service, shall seize, take custody, control, and possession of the Subject

Real Property, whether held by the defendant or a third party.
IT IS FURTHER ORDERED that the United States shall cause publication for at least 30

consecutive days on an official government internet website

(v.

...........

i

ejpv) of the notice of

the Preliminary Order ofForfiiture and of its intent to dispose of the Subject Real Property in such

manner as the United States directs. The United States shall send notice to any person or entity
Who reasonably appears to he a potential petitioner with standing to contest the forfeiture in the

ancillary proceeding.
IT iS FURTHER ORDERED that the United States shall send I)irect Notice of the

Preliminary Order of Forfeiture, Appendix A, which is attached to the United States of America's

Motion for Preliminary Order of Forfeiture, and incorporated herein, to those known to the United
States to have an interest in the Subject Real Property.
IT IS FURTHER ORDERED that in the event a third-party petition is filed as to the

Subject Real Property, the United States shall commence discovery proceedings to resolve any

thirdparty issues, including depositions, interrogatories, requests for production of documents,
and the issuance of subpoenas, pursuant to Fed. R. Civ. P. 45.

IT IS FURTHER ORDERED that the Defendant, his attorneys, agents, spouse, and anyone

acting on his behalf, and all persons or entities acting in concert or participation with any of the

Appendix C
22a

18-50784.234

Case 2:16-cr-01115-AM Document 1167 Filed 11/20/18 Page 3 of 4
'

above, and all persons and entities having actual knowledge of this Order, shall not directly or

indirectly, transfer, sell, assign, pledge, distribute, hypothecate, encumber, attach or dispose of in
any manner; cause to be transferred, sold, assigned, pledged, distributed, hypothecated,

encumbered, attached or disposed of in any manner; or take, or cause to he taken, any action that
would have the effect of depreciating, damaging, or in any way diminishing the value of the
Subject Real Property.
IT IS FURTHER ORDERED that the Defendant, his attorneys, agents, spouse, and anyone
acting on his behalf, and all persons or entities acting in concert or participation with any of the
above, and all persons and entities having actual knowledge of this Order, shall not use or permit
the Subject Real Property to be used for any illegal activity.

IT IS FURTHER ORDERED that the owners of the Subject Real Property are required to

maintain the present condition of the Subject Real Property, including timely payment of all
mortgages, insurance, utilities, taxes, and assessments, until further order of this Court.
SIGNED this

lav OfY7UJJV1JôL4

,

2() 18

MOSET
3D STATES

/

DISTaICT JUDGE

3

Appendix C
23a

18-50784.235

Case 2:i5crO1115AM
2:16-cr-01115-AM Document
Document 1164
1175 Filed 1C.'J.J18
12/04/18 Page
Page 41 of
of 52
Case

L

UNITED STATES DISTRICT COURT
WESTERN i)ISTR1CT OF TEXAS
DEL RiO 1)1 VISION
k8
UNITED STATES OF AMERICA,

E
2018

)
)

Plaintiff,

LJ

)
)

CRIMINAL NO. DR-16-CR.1115-AM

V.
)

DAVID DAVALOS,

SR.

(11),

)

)

Defendant.

)

ORDER OF MONEY JUDGMENT
Pending before the Court is the United States of America's Motion for Entry of Money
Judgment (ECF No.ft4, pursuant to Fed. R. Crim. P. 32.2(c)(1) and Title 21 U.S.C.

§

853(p).

This Court being fully and wholly apprised in all its premises, finds that the United States has

proven by a preponderance of the evidence that the money judgment described below represents
the amount of proceeds obtained by Defendant DAVID DAVALOS, SR. from the violations of

Counts Three and Five of the Indictment (ECF No. 2), specifically Title 21 U.S.C.

§

841(a)(l) &

(b)(l)(A), 846, and 856(a)(l) & (b), by virtue of the Defendant's Guilty Plea (ECF No. 742) and
the Court's determination of a money judgment amount at Sentencing (ECF No.

1

146, page 7).

Said Motion is meritorious and should be, and hereby is, in all things GRANTED.

IT IS THEREFORE, ORI)ERED that any and all right, title, and interest of Defendant

DAVID DAVALOS, SR. in the following:

!e!udnient: A sum of money equal to One Million Seven Hundred and
Ninety-Four rFhous1nd Dollars ($1,794,000.00), which represents the proceeds
from and the value of the property involved in the violations in the indictment for
which the defendants assessed a money judgment are solely liable,
hereinafter referred to as the individual Money Judgment be, and hereby is FORFEITED to the
United States of America.

Appendix D
24a

18-50784.237

Case2.1
2:16-cr-01115-AM
Document.1164
1175 Pikd
Filed 12/04/18
(I.R..
Page52o!ofS2
Page
crO1. 11..5AM Document
Case
.

IT IS FURTHER ORDERED that the United States of America shall, at its option, be

entitled to the forfeiture of any other property (substitute assets) owned by Defendant DAVID
DAVALOS, SR. equivalent to the value of the Individual Money Judgment and that this Court
shall retain jurisdiction of this matter to settle any disputes arising from application of this clause.

SIGNED this

day of

,

2018.

UNITED STATES [ STRICT JUDGE

2

Appendix D
25a

18-50784.238

Rule 32.2. Criminal Forfeiture.
Federal Court Rules
Federal Rules of Criminal Procedure
Title VII. Post-conviction Procedures
As amended through October 24, 2018
Rule 32.2. Criminal Forfeiture
(a)

Notice to the Defendant. A court must not enter a judgment of forfeiture in a criminal
proceeding unless the indictment or information contains notice to the defendant that the
government will seek the forfeiture of property as part of any sentence in accordance with
the applicable statute. The notice should not be designated as a count of the indictment or
information. The indictment or information need not identify the property subject to
forfeiture or specify the amount of any forfeiture money judgment that the government
seeks.

(b)

Entering a Preliminary Order of Forfeiture.
(1)

(2)

Forfeiture Phase of the Trial.
(A)

Forfeiture Determinations.As soon as practical after a verdict or finding of
guilty, or after a plea of guilty or nolo contendere is accepted, on any count
in an indictment or information regarding which criminal forfeiture is sought,
the court must determine what property is subject to forfeiture under the
applicable statute. If the government seeks forfeiture of specific property,
the court must determine whether the government has established the
requisite nexus between the property and the offense. If the government
seeks a personal money judgment, the court must determine the amount of
money that the defendant will be ordered to pay.

(B)

Evidence and Hearing.The court's determination may be based on evidence
already in the record, including any written plea agreement, and on any
additional evidence or information submitted by the parties and accepted by
the court as relevant and reliable. If the forfeiture is contested, on either
party's request the court must conduct a hearing after the verdict or finding
of guilty.

Preliminary Order.
(A)

Contents of a Specific Order.If the court finds that property is subject to
forfeiture, it must promptly enter a preliminary order of forfeiture setting forth

Appendix E
26a

the amount of any money judgment, directing the forfeiture of specific
property, and directing the forfeiture of any substitute property if the
government has met the statutory criteria. The court must enter the order
without regard to any third party's interest in the property. Determining
whether a third party has such an interest must be deferred until any third
party files a claim in an ancillary proceeding under Rule 32.2(c).
(B)

Timing.Unless doing so is impractical, the court must enter the preliminary
order sufficiently in advance of sentencing to allow the parties to suggest
revisions or modifications before the order becomes final as to the
defendant under Rule 32.2(b)(4).

(C)

General Order.If, before sentencing, the court cannot identify all the specific
property subject to forfeiture or calculate the total amount of the money
judgment, the court may enter a forfeiture order that:
(i)

lists any identified property;

(ii)

describes other property in general terms; and

(iii) states that the order will be amended under Rule 32.2(e)(1) when
additional specific property is identified or the amount of the money
judgment has been calculated.
(3)

Seizing Property. The entry of a preliminary order of forfeiture authorizes the
Attorney General (or a designee) to seize the specific property subject to forfeiture;
to conduct any discovery the court considers proper in identifying, locating, or
disposing of the property; and to commence proceedings that comply with any
statutes governing third-party rights. The court may include in the order of forfeiture
conditions reasonably necessary to preserve the property's value pending any
appeal.

(4)

Sentence and Judgment.
(A)

When Final.At sentencing-or at any time before sentencing if the defendant
consents-the preliminary forfeiture order becomes final as to the defendant.
If the order directs the defendant to forfeit specific property, it remains
preliminary as to third parties until the ancillary proceeding is concluded
under Rule 32.2(c).

(B)

Notice and Inclusion in the Judgment.The court must include the forfeiture
when orally announcing the sentence or must otherwise ensure that the
defendant knows of the forfeiture at sentencing. The court must also include
the forfeiture order, directly or by reference, in the judgment, but the court's
failure to do so may be corrected at any time under Rule 36.

Appendix E
27a

(C)

(5)

(6)

(7)

Time to Appeal.The time for the defendant or the government to file an
appeal from the forfeiture order, or from the court's failure to enter an order,
begins to run when judgment is entered. If the court later amends or
declines to amend a forfeiture order to include additional property under
Rule 32.2(e), the defendant or the government may file an appeal regarding
that property under Federal Rule of Appellate Procedure 4(b). The time for
that appeal runs from the date when the order granting or denying the
amendment becomes final.

Jury Determination.
(A)

Retaining the Jury.In any case tried before a jury, if the indictment or
information states that the government is seeking forfeiture, the court must
determine before the jury begins deliberating whether either party requests
that the jury be retained to determine the forfeitability of specific property if it
returns a guilty verdict.

(B)

Special Verdict Form.If a party timely requests to have the jury determine
forfeiture, the government must submit a proposed Special Verdict Form
listing each property subject to forfeiture and asking the jury to determine
whether the government has established the requisite nexus between the
property and the offense committed by the defendant.

Notice of the Forfeiture Order.
(A)

Publishing and Sending Notice.If the court orders the forfeiture of specific
property, the government must publish notice of the order and send notice
to any person who reasonably appears to be a potential claimant with
standing to contest the forfeiture in the ancillary proceeding.

(B)

Content of the Notice.The notice must describe the forfeited property, state
the times under the applicable statute when a petition contesting the
forfeiture must be filed, and state the name and contact information for the
government attorney to be served with the petition.

(C)

Means of Publication; Exceptions to Publication Requirement.Publication
must take place as described in Supplemental Rule G(4)(a)(iii) of the
Federal Rules of Civil Procedure, and may be by any means described in
Supplemental Rule G(4)(a)(iv). Publication is unnecessary if any exception
in Supplemental Rule G(4)(a)(i) applies.

(D)

Means of Sending the Notice.The notice may be sent in accordance with
Supplemental Rules G(4)(b)(iii)-(v) of the Federal Rules of Civil Procedure.

Interlocutory Sale. At any time before entry of a final forfeiture order, the court, in

Appendix E
28a

accordance with Supplemental Rule G(7) of the Federal Rules of Civil Procedure,
may order the interlocutory sale of property alleged to be forfeitable.
(c)

Ancillary Proceeding; Entering a Final Order of Forfeiture.
(1)

(d)

In General. If, as prescribed by statute, a third party files a petition asserting an
interest in the property to be forfeited, the court must conduct an ancillary
proceeding, but no ancillary proceeding is required to the extent that the forfeiture
consists of a money judgment.
(A)

In the ancillary proceeding, the court may, on motion, dismiss the petition
for lack of standing, for failure to state a claim, or for any other lawful
reason. For purposes of the motion, the facts set forth in the petition are
assumed to be true.

(B)

After disposing of any motion filed under Rule 32.2(c)(1)(A) and before
conducting a hearing on the petition, the court may permit the parties to
conduct discovery in accordance with the Federal Rules of Civil Procedure if
the court determines that discovery is necessary or desirable to resolve
factual issues. When discovery ends, a party may move for summary
judgment under Federal Rule of Civil Procedure 56.

(2)

Entering a Final Order. When the ancillary proceeding ends, the court must enter
a final order of forfeiture by amending the preliminary order as necessary to
account for any third-party rights. If no third party files a timely petition, the
preliminary order becomes the final order of forfeiture if the court finds that the
defendant (or any combination of defendants convicted in the case) had an interest
in the property that is forfeitable under the applicable statute. The defendant may
not object to the entry of the final order on the ground that the property belongs, in
whole or in part, to a co-defendant or third party; nor may a third party object to the
final order on the ground that the third party had an interest in the property.

(3)

Multiple Petitions. If multiple third-party petitions are filed in the same case, an
order dismissing or granting one petition is not appealable until rulings are made
on all the petitions, unless the court determines that there is no just reason for
delay.

(4)

Ancillary Proceeding Not Part of Sentencing. An ancillary proceeding is not part
of sentencing.

Stay Pending Appeal. If a defendant appeals from a conviction or an order of forfeiture,
the court may stay the order of forfeiture on terms appropriate to ensure that the property
remains available pending appellate review. A stay does not delay the ancillary
proceeding or the determination of a third party's rights or interests. If the court rules in
favor of any third party while an appeal is pending, the court may amend the order of

Appendix E
29a

forfeiture but must not transfer any property interest to a third party until the decision on
appeal becomes final, unless the defendant consents in writing or on the record.
(e)

Subsequently Located Property; Substitute Property.
(1)

(2)

(3)

In General. On the government's motion, the court may at any time enter an order
of forfeiture or amend an existing order of forfeiture to include property that:
(A)

is subject to forfeiture under an existing order of forfeiture but was located
and identified after that order was entered; or

(B)

is substitute property that qualifies for forfeiture under an applicable statute.

Procedure. If the government shows that the property is subject to forfeiture under
Rule 32.2(e)(1), the court must:
(A)

enter an order forfeiting that property, or amend an existing preliminary or
final order to include it; and

(B)

if a third party files a petition claiming an interest in the property, conduct an
ancillary proceeding under Rule 32.2(c).

Jury Trial Limited. There is no right to a jury trial under Rule 32.2(e).

Cite as Fed. R. Crim. P. 32.2
History.
As added Apr. 17, 2000, eff. Dec. 1, 2000; amended Apr. 29, 2002, eff. Dec. 1, 2002; Mar. 26, 2009, eff. Dec. 1, 2009.

Appendix E
30a

Rule 35. Correcting or Reducing a Sentence.
Federal Court Rules
Federal Rules of Criminal Procedure
Title VII. Post-conviction Procedures
As amended through October 24, 2018
Rule 35. Correcting or Reducing a Sentence
(a)

Correcting Clear Error. Within 14 days after sentencing, the court may correct a
sentence that resulted from arithmetical, technical, or other clear error.

(b)

Reducing a Sentence for Substantial Assistance.

(c)

(1)

In General. Upon the government's motion made within one year of sentencing,
the court may reduce a sentence if the defendant, after sentencing, provided
substantial assistance in investigating or prosecuting another person.

(2)

Later Motion. Upon the government's motion made more than one year after
sentencing, the court may reduce a sentence if the defendant's substantial
assistance involved:
(A)

information not known to the defendant until one year or more after
sentencing;

(B)

information provided by the defendant to the government within one year of
sentencing, but which did not become useful to the government until more
than one year after sentencing; or

(C)

information the usefulness of which could not reasonably have been
anticipated by the defendant until more than one year after sentencing and
which was promptly provided to the government after its usefulness was
reasonably apparent to the defendant.

(3)

Evaluating Substantial Assistance. In evaluating whether the defendant has
provided substantial assistance, the court may consider the defendant's
presentence assistance.

(4)

Below Statutory Minimum. When acting under Rule 35(b), the court may reduce
the sentence to a level below the minimum sentence established by statute.

''Sentencing'' Defined. As used in this rule, ''sentencing'' means the oral announcement
of the sentence.

Appendix F
31a

Cite as Fed. R. Crim. P. 35
History.
As amended Feb. 28, 1966, eff. July 1, 1966; Apr. 30, 1979, eff. Aug. 1, 1979; Apr. 28, 1983, eff. Aug. 1, 1983; Oct.
12, 1984, eff. Nov. 1, 1987; Apr. 29, 1985, eff. Aug. 1, 1985; Oct. 27, 1986, eff. Nov. 1, 1987; Apr. 30, 1991, eff. Dec.
1, 1991; Apr. 24, 1998, eff. Dec. 1, 1998; Apr. 29, 2002, eff. Dec. 1, 2002; Apr. 26, 2004, eff. Dec. 1, 2004; Apr. 30,
2007, eff. Dec. 1, 2007; Mar. 26, 2009, eff. Dec. 1, 2009.

Appendix F
32a

